No. 20-- - - - INTHE
SUPREME COURT OF THE UNITED STATES

MELVIN WHITEHEAD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in foTma pauperis.
Petitioner has previously been granted leave to proceed in forma paupeTis in
the following courts: United States District Court, Eastern District of California
and United States Court of Appeals for the Ninth Circuit.
The appointment was made in District Court pursuant to 18 U.S.C.

ยง 3006A(d)(7) and the representation was continued to the Ninth Circuit on appeal.
Dated: July 31, 2020

Respectfully submitted,
HEATHER E. WILLIAMS

Assistant Federal Defender
Counsel of Record for Petitioner

